LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 3, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1375:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

KRISTINA BOX, COMMISSIONER, INDIANA STATE DEPARTMENT OF
HEALTH, ET AL. V. PLANNED PARENTHOOD OF INDIANA AND
KENTUCKY, INC.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Judicial Watch,
Inc. on May 3, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020 on the following counsel for the Petitioners and
Respondent:
PETITIONERS:
Thomas M. Fisher
Office of the Indiana
Attorney General
IGC-South, Fifth Floor
302 W. Washington
Indianapolis, IN 46204
317-232-6255
tom.fisher@atg.in.gov

RESPONDENT:
Jennifer Ruth Sandman
Planned Parenthood Federation
of America
123 William Street
9th Floor
New York, NY 10038
212-261-4584
jennifer.sandman@ppfa.org

This service was effected by depositing one copy of the Brief of Amicus Curiae
Judicial Watch, Inc. in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 3rd day of May 2021.

